                                                        NATIONAL SCIENCE FOqNDATION
                                                         OFFlCEOF INSPECTOR GENERAL
                                                          OF'FlCE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

  Case Number: 109040022                                                                   Page 1 of 1



                 We received an allegation that a PI! was receiving award2 funds but was unable to
          perfonn the required functions described in the awards due to his illness. Our review of
          infonnation provided by the Universitl and oUr review of th<1 Family Medical Leave Act, the
          American with Disabilities Act, regulations associated with both Acts, and University policy
          detennined that both the University and the PI complied with all relevant policies and
          procedures. Therefore, this allegation is ,unsubstantiated at this time.

                    Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
